No. 21-5305

In the Supreme Court of the United States
Alejandro Rosales-Gonzalez,
Petitioner,
v.
United States of America,
Respondent.
On Writ of Certiorari to the
United States Court of Appeals
For the Eleventh Circuit
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amicus
Curiae Eighth Amendment Scholars in Support of Petitioner in the above-entitled
case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in Century Schoolbook 12 point for the text and 10 point for the footnotes,
and that the Brief of Amicus Curiae contains 5,994 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 12, 2021.
__________________
Beth A. Colgan
UCLA School of Law
405 Hilgard Ave.
Los Angeles, CA 90095
(310) 825-6996
colgan@law.ucla.edu
Counsel for Amicus Curiae

